No. 19AIN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, APPLICANT
v.
RILEY BRIONES, JR.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE A
PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT, via email and first-class mail, postage prepaid, this
25th day of September, 2019.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 25, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19AUNITED STATES OF AMERICA
RILEY BRIONES, JR.

VIKKI M. LILES
LAW OFFICE OF VIKKI M. LILES
335 E. PALM LANE
PHOENIX, AZ 85004
602-252-2110
LILESLAW@MSN.COM
EASHA ANAND
ORRICK HERRINGTON & SUTCLIFFE LLP
THE ORRICE BUILDING
405 HOWARD STREET
SAN FRANCISCO, CA 94105
415-773- 5837
EANAND@ORRICK.CM

